                                        August 1, 2006




MEMORANDUM TO:            Luis A. Reyes
                          Executive Director for Operations



FROM:                     Stephen D. Dingbaum/RA/
                          Assistant Inspector General for Audits


SUBJECT:                  AUDIT OF NRC’S IMPLEMENTATION OF HOMELAND
                          SECURITY PRESIDENTIAL DIRECTIVE-12 (HSPD-12)
                          (OIG-06-A-20)


This report presents the results of the subject audit. Agency comments provided at the
exit conference on July 10, 2006, have been incorporated, as appropriate, into this
report. The agency did not provide formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the audit. If you have any questions or comments about our report, please
contact me at 301-415-5915, or Beth Serepca at 415-5911.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                     AUDIT REPORT



                       Audit of NRC’s Implementation of
                        Homeland Security Presidential
                            Directive-12 (HSPD-12)

                        OIG-06-A-20     August 1, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



EXECUTIVE SUMMARY

                BACKGROUND

                President Bush issued Homeland Security Presidential Directive-12
                (HSPD-12) on August 27, 2004, to address wide variations in the
                quality and security of forms of identification used to gain access to
                Federal facilities. This directive ordered the establishment of a
                mandatory Governmentwide standard for secure and reliable forms
                of identification to be issued by the Government to its contractors
                and employees.

                In February 2005, the National Institute of Standards and
                Technology (NIST) issued Federal Information Processing
                Standards Publication 201 (FIPS 201), “Personal Identity
                Verification (PIV) of Federal Employees and Contractors.” This
                document specifies the requirements for a common identification
                standard for Federal employees and contractors. In March 2006,
                NIST issued a revision to FIPS 201. The revised document has the
                same title as FIPS 201, and is identified as FIPS 201-1.
                Differences between the two versions are irrelevant to the findings
                in this report.

                FIPS 201-1 consists of two parts. The first, referred to as PIV-I,
                sets out uniform requirements for identity proofing (i.e., verifying the
                identity of individuals applying for official agency badges) as well as
                issuing badges, maintaining related information, and protecting the
                privacy of applicants. The second part, known as PIV-II, provides
                detailed specifications that will support technical interoperability1
                among Government department and agency personal identity
                verification systems.

                PURPOSE

                The objective of this audit was to determine whether the Nuclear
                Regulatory Commission (NRC) is positioned to meet HSPD-12
                requirements.

                RESULTS IN BRIEF

                NRC implemented a PIV-I process in accordance with the Office of
                Management and Budget’s (OMB) deadline and is considering
                options for PIV-II implementation. However, improvements are

1
  Interoperability is the ability of two or more systems or components to exchange information and
to use the information exchanged.


                                                 i
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



needed to (1) assure consistent fulfillment of PIV-I requirements
and (2) strengthen the HSPD-12 working group. In addition to
these two audit findings, this report conveys an observation
concerning the agency’s approach to PIV-II. This observation,
which appears in Appendix C, addresses the need to document
PIV-II alternatives to ensure the agency pursues a cost-effective
solution.

        PIV-I Process Is Not Always Followed

NRC implemented a PIV-I process within the timeframe required by
OMB. However, staff do not always follow certain PIV-I
requirements contained in NIST guidance or in NRC’s accredited
PIV-I implementation plan. Auditors identified examples where:

¾ The required background investigation was not completed prior
  to badge issuance.
¾ Required identity documents were not reviewed prior to badge
  issuance.
¾ Required paperwork was not on file.
¾ The separation-of-duty requirement was not achieved in
  headquarters because a single individual has the ability to issue
  a badge without cooperation from any other participant in the
  process.

These problems occurred because (1) there is no quality assurance
measure to assure that required steps are met prior to badge
issuance, (2) some personnel with roles in the process do not
understand their responsibilities, and (3) the badge photograph
process is not carried out in accordance with the accredited plan.
As a result, NRC (1) lacks assurance that the PIV-I process is
consistently followed and (2) does not achieve the HSPD-12
separation-of-duty requirement.

        Strengthen the HSPD-12 Working Group

NRC’s HSPD-12 working group lacks a charter, lacks certain
expertise that will be useful to guide the implementation of PIV-II,
and has limited executive level representation. NRC’s HSPD-12
working group is not sufficiently formalized or representative
because Security Branch officials did not recognize the need for
such measures. The development of an appropriate and cost-
effective PIV-II solution will be facilitated by the efforts of a more
formalized working group.




                                 ii
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



RECOMMENDATIONS

This report makes six recommendations to assure PIV-I
requirements are fulfilled and to strengthen the HSPD-12 working
group.

AGENCY COMMENTS

During an exit conference held July 10, 2006, the agency generally
agreed with the audit findings and recommendations and provided
comments concerning the draft audit report. We modified the
report as we determined appropriate in response to these
comments. NRC reviewed these modifications and opted not to
submit formal written comments to this final version of the report.




                                 iii
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




               [Page intentionally left blank.]




                                 iv
                Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



TABLE OF CONTENTS

    EXECUTIVE SUMMARY............................................................................. i
    ABBREVIATIONS AND ACRONYMS .......................................................vii
    I.      BACKGROUND ................................................................................. 1
    II.     PURPOSE.......................................................................................... 8
    III.    FINDINGS .......................................................................................... 9
           A.    PIV-I PROCESS IS NOT ALWAYS FOLLOWED ..................................... 9
           B.    HSPD-12 WORKING GROUP HAS SEVERAL SHORTCOMINGS ........... 17
    IV.     AGENCY COMMENTS .................................................................... 21
    V.      CONSOLIDATED LIST OF RECOMMENDATIONS ........................ 22


    APPENDICES


    A.      PIV-II ARCHITECTURE DIAGRAM ................................................. 23

    B.      SCOPE AND METHODOLOGY ...................................................... 25

    C.      AUDIT OBSERVATION CONCERNING NRC’S PIV-II
            APPROACH ..................................................................................... 27

    D.      SAMPLE CHARTER – HOMELAND SECURITY PRESIDENTIAL
            DIRECTIVE-12 PERSONAL IDENTITY VERIFICATION WORKING
            GROUP ............................................................................................ 31




                                                     v
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




               [Page intentionally left blank.]




                                 vi
          Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



ABBREVIATIONS AND ACRONYMS

   FBI                    Federal Bureau of Investigation
   FIPS                   Federal Information Processing Standards Publication
   GAO                    Government Accountability Office
   HSPD-12                Homeland Security Presidential Directive-12
   MD                     Management Directive and Handbook
   NRC                    Nuclear Regulatory Commission
   OIG                    Office of the Inspector General
   OMB                    Office of Management and Budget
   PIV                    Personal Identity Verification




                                          vii
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




                   [Page intentionally left blank.]




                                viii
                Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



I. BACKGROUND

                President Bush issued Homeland Security Presidential Directive-12
                (HSPD-12) on August 27, 2004, to address wide variations in the
                quality and security of forms of identification used to gain access to
                Federal facilities. This directive ordered the establishment of a
                mandatory Governmentwide standard for secure and reliable forms
                of identification to be issued by the Government to its contractors
                and employees.

                HSPD-12 assigned specific responsibilities and deadlines to
                different Government entities. It directed the Secretary of
                Commerce, within 6 months of the directive’s issuance, to issue a
                standard for secure and reliable forms of identification that:

                ¾ Establishes a reliable process for verifying an individual’s
                  identity.
                ¾ Is strongly resistant to identity fraud, tampering, counterfeiting,
                  and terrorist exploitation.
                ¾ Can be verified electronically in an expeditious manner.
                ¾ Is distributed only by an authorized provider whose reliability
                  has been established in an official accreditation process.

                It directed Government departments and agencies to require
                Federal employees and contractors to use identification that meets
                the standard to gain physical and logical access to Federal facilities
                and information systems.2 This was to be accomplished within 8
                months of the standard’s issuance and to the maximum extent
                practicable. It directed the Office of Management and Budget
                (OMB) to ensure compliance with the directive and standard.
                (See Table 1 for a list of dates related to HSPD-12.)




2
  Physical access refers to the physical access to the computing systems, facilities, and paper
records. Logical access refers to user based authenticated access to computers, application
systems, and the data that is processed.



                                                 1
        Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




Table 1. HSPD-12 Dates

August 2004       President issues HSPD-12

February 2005     NIST issues FIPS 201

August 2005       OMB issues HSPD-12 implementation guidance memo

October 2005      Deadline for agency compliance with PIV-I


March 2006        NIST issues FIPS 201-1


October 2006      Deadline for agencies to begin issuing HSPD-12 badges


October 2007      Deadline for agencies to finish issuing HSPD-12 badges


        FIPS 201 and 201-1

        In February 2005, the National Institute of Standards and
        Technology (NIST) (part of the Department of Commerce) issued
        Federal Information Processing Standards Publication 201 (FIPS
        201), “Personal Identity Verification (PIV) of Federal Employees
        and Contractors.” This document specifies the requirements for a
        common identification standard for Federal employees and
        contractors. In March 2006, NIST issued a revision to FIPS 201.
        The revised document has the same title as FIPS 201, and is
        identified as FIPS 201-1. Differences between the two versions are
        irrelevant to the findings in this report.

        FIPS 201-1 consists of two parts. The first, referred to as PIV-I,
        sets out uniform requirements for identity proofing (i.e., verifying the
        identity of individuals applying for official agency badges) as well as
        issuing badges, maintaining related information, and protecting the
        privacy of applicants. Table 2 lists some of the main PIV-I
        requirements.




                                         2
                Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




                 Table 2. Selected PIV-I Requirements


                      Successfully completed background investigation


                      Two original identification documents


                      Applicant appears in person prior to badge issuance


                      Verification, at badge issuance, that the recipient is the
                       same as the intended recipient


                      A single individual cannot issue a badge without the
                       cooperation of another authorized person


                      Full disclosure to badge recipients of intended uses of
                       the badge and related privacy implications


                The second part, known as PIV-II, provides detailed specifications
                that will support technical interoperability among Government
                department and agency personal identity verification systems. This
                interoperability is based on the use of interoperable smart cards,
                which are plastic, credit card sized devices that use integrated
                circuit chips to store and process data. Smart cards offer the
                potential to enhance security by improving the process of
                authenticating the identity of people accessing Federal buildings
                and computer systems, especially when used in combination with
                other technologies, such as biometrics.3




3
  A biometric measures a person’s unique physical characteristics (e.g., fingerprints, hand
geometry) or behavioral characteristics (e.g., voice patterns, written signatures) and can be used
to recognize the identity, or verify the claimed identity, of an individual.


                                                 3
               Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



               PIV-II Minimum Requirements

               Although FIPS 201-1 describes the minimum requirements to
               allow interoperability of the PIV smart cards for physical and
               logical access, it does not prescribe the extent to which
               agencies should use the cards for such purposes. According
               to FIPS 201-1, it is up to Federal departments and agencies to
               determine the level of security and authentication mechanisms
               appropriate for their applications. As explained by a NIST
               official, the FIPS standard and its associated guidelines
               specify what is to be on the card in order to support a range of
               physical and logical access control mechanisms, but do not
               specify what mechanisms should be employed.

               Table 3 lists some of the minimum requirements for a PIV-II
               compliant system.4 Also see Appendix A for an architectural
               diagram of components that may be included in a PIV-II system.




4
 These requirements appeared on an OMB HSPD-12 reporting template that Federal agencies
were required to complete and submit to OMB for review and approval. Federal agencies were
asked to provide a status and planned completion date for each of these requirements.


                                                4
   Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




Table 3. Selected PIV-II Requirements


   Badges are issued through systems and providers whose
    reliability has been established by the agency through a self-
    accreditation process.


   All agency badges are issued with FIPS 201 visible external
    security features.


   All agency badges are issued with FIPS 201 electronic security
    features.


   Agency employees and contractors routinely use these
    electronic security features to gain access to facilities and/or
    systems (or to authenticate identity).


   Badges contain a biometric and can be electronically
    authenticated to the holder using a biometric match.


   Badges have the capability to be electronically verified to
    determine the employee/contractor is in good standing (i.e.,
    badge has not been revoked).


   OMB Guidance

   In August 2005, OMB issued HSPD-12 implementation guidance
   for Federal departments and agencies. This guidance directed
   agencies to implement PIV-I requirements by October 27, 2005. It
   also directed agencies to begin issuing HSPD-12 badges that meet
   PIV-II requirements by October 27, 2006, to employees and
   contractors needing routine access to Federal facilities or
   information systems for more than 6 months. OMB mandated that
   departments and agencies use only products and services that are
   approved as compliant with the FIPS standard and are included on
   an approved products list.




                                    5
                Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



                Current Status of HSPD-12 Implementation

                In February 2006, the Government Accountability Office (GAO)
                reported that the Federal Government faces significant challenges
                in implementing the FIPS 201 standard, including:

                ¾ Testing and acquiring compliant commercial products, such as
                  smart cards and card readers within OMB-mandated deadlines.

                ¾ Reconciling divergent implementation specifications.

                ¾ Incomplete guidance regarding the applicability of the standard
                  to facilities, people, and information systems.

                ¾ Planning and budgeting with uncertain knowledge and the
                  potential for substantial cost increases.

                The report also assessed the progress of six agencies – the
                Departments of Defense, the Interior, Homeland Security, Housing
                and Urban Development, and Labor, and the National Aeronautics
                and Space Administration – in implementing PIV-I and PIV-II.
                GAO found that the six agencies had focused primarily on PIV-I
                and had begun to address PIV-II, but had not developed specific
                designs for card systems that met FIPS 201 interoperability
                requirements. Five of the six agencies reported that they had made
                little progress toward implementing PIV-II due largely to the
                absence of FIPS 201 compliant products.5

                NRC’s Progress

                The Nuclear Regulatory Commission (NRC) implemented a PIV-I
                process on October 27, 2005, in compliance with OMB’s deadline.
                The agency’s PIV-I process establishes five PIV-I roles: (1)
                applicant, (2) PIV sponsor, (3) PIV registrar, (4) I-9 document
                certification authority, and (5) PIV issuer. Table 4 provides
                information on each of these roles.

                Implementation of the PIV-I process did not require major
                adjustments to NRC’s existing personnel security program, which
                already required all employees and contractors to undergo
                background investigations prior to being permitted unescorted
                access within NRC facilities. The main changes are that (1)
                employees and contractors now must present two specific forms of

5
 GAO-06-178, Electronic Government – Agencies Face Challenges in Implementing New
Federal Employee Identification Standard, was published in February 2006, prior to the issuance
of FIPS 201-1.


                                                 6
            Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



            original identification documents prior to being issued a badge and
            (2) some contractors undergo a higher level background
            investigation than previously was required. Also, due to HSPD-12’s
            separation-of-duty requirement (i.e., that no single individual may
            issue a badge without the cooperation of another authorized
            individual), there are more people involved in the badging process
            than before.


Table 4. HSPD 12 Roles and Descriptions


HSPD-12 Role                                      Description


Applicant                                         The contractor or employee to whom a
                                                  badge is issued.

PIV Sponsor (performed by the Office              The individual who validates an
of Human Resources)                               applicant’s requirement for a PIV
                                                  badge and sponsors the applicant’s
                                                  request.


PIV Registrar (performed by                       The individual or entity that performs
designated staff in the headquarters              the identity-proofing process for the
Security Branch)                                  applicant and ensures that the proper
                                                  background checks have taken place
                                                  with positive results. The PIV registrar
                                                  has the final approval authority for
                                                  issuance of a badge to an applicant.


I-9 Document Certification Authority              The individual who assists the PIV
(performed by designated staff in                 registrar by performing the identity-
headquarters, the regional offices, and           proofing process for the applicant.
at resident inspector sites)


PIV Issuer (performed by designated               The individual or entity that issues a
headquarters Security Branch staff and            badge to an applicant following the
security guards, regional office, and             positive completion of all identity
resident inspector site staff)                    proofing, background checks, and
                                                  related approvals.




                                             7
         Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



      The PIV-II process is expected to bring more visible changes to NRC’s
      process. In October 2005, the Commission approved the NRC staff’s
      plan for implementing PIV-II in a timeframe acceptable to OMB.
      According to NRC staff, implementing NRC’s planned PIV-II approach,
      which exceeds PIV-II minimum requirements, would cost $10.2 million.
      Further, it would serve to enhance the agency’s physical and
      personnel security capabilities. The plan includes:

         ¾ Perimeter access control devices at headquarters and regional
           entry points to read the HSPD-12 badge, verify its authenticity,
           and allow access.

         ¾ Logical access readers for all employee and contractor
           workstations in headquarters and regional offices.

         ¾ Fingerprint and photo capture stations in headquarters and
           regional offices.

         ¾ Badge encoders in headquarters and regional offices and badge
           printers in headquarters.

         ¾ Turnstiles for headquarters lobbies.

         ¾ A new automated system to support HSPD-12, personnel
           security, and physical security requirements.

         As part of its implementation efforts, NRC established an NRC
         HSPD-12 working group composed of 13 individuals from the
         Offices of Administration and Information Services that meets
         periodically to discuss developments and concerns related to
         implementation of PIV-II at NRC.

II. PURPOSE

         The objective of this audit was to determine whether NRC is
         positioned to meet HSPD-12 requirements. Appendix B contains
         information on the audit scope and methodology.




                                          8
           Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



III. FINDINGS

           NRC implemented a PIV-I process in accordance with OMB’s
           deadline and is considering options for PIV-II implementation.
           However, improvements are needed to (1) assure consistent
           fulfillment of PIV-I requirements and (2) strengthen the HSPD-12
           working group. In addition to these two audit findings, this report
           conveys an observation concerning the agency’s approach to PIV-
           II. This observation, which appears in Appendix C, addresses the
           need to document PIV-II alternatives to ensure the agency pursues
           a cost-effective solution.

  A.   PIV-I Process Is Not Always Followed

           NRC implemented a PIV-I process within the timeframe required by
           OMB. However, staff do not always follow certain PIV-I
           requirements contained in NIST guidance or in NRC’s accredited
           PIV-I implementation plan. Auditors identified examples where:

           ¾ The required background investigation was not completed prior
             to badge issuance.

           ¾ Required identity documents were not reviewed prior to badge
             issuance.

           ¾ Required paperwork was not on file.

           ¾ The separation-of-duty requirement was not achieved in
             headquarters because a single individual has the ability to issue
             a badge without cooperation from any other participant in the
             process.

           These problems occurred because (1) there is no quality assurance
           measure to assure that required steps are met prior to badge
           issuance, (2) some personnel with roles in the process do not
           understand their responsibilities, and (3) the badge photograph
           process is not carried out in accordance with the accredited plan.
           As a result, NRC (1) lacks assurance that the PIV-I process is
           consistently followed and (2) does not achieve the HSPD-12
           separation-of-duty requirement.




                                            9
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



NIST and NRC Requirements

FIPS 201-1 specifies the minimum requirements for a Federal
personal identity verification system that meets HSPD-12’s control
and security objectives. According to FIPS 201-1, departments and
agencies are to adopt and use a self-accredited process for
verifying applicant identities and issuing and maintaining applicant
badges. Departments and agencies are required to accredit their
process by determining that it satisfies requirements, and the head
of the entity is to approve the process in writing.

These requirements fall into three categories: (1) identity proofing
and registration requirements used to verify the identity of the
employee or contractor; (2) badge issuance and maintenance
requirements pertaining to badge production and issuance to the
employee or contractor; and (3) privacy requirements intended to
protect the personal privacy of employees and contractors subject
to HSPD-12 requirements. Requirements include the following:

¾ A minimum background investigation must be completed prior to
  badge issuance. FIPS 201-1 requires that the Federal Bureau
  of Investigation (FBI) National Criminal History Fingerprint
  Check, which is one component of the National Agency Check,
  be completed before badge issuance.

¾ The employee or contractor must provide two forms of original
  identity documents. These documents must come from the list
  of acceptable documents in Department of Homeland Security
  Form I-9, Employment Eligibility Verification. (See Table 5 for
  examples of acceptable I-9 documents.)

¾ PIV applicants must be fully informed as to the intended uses of
  the badge and the related privacy implications.

¾ The PIV identity proofing, registration, and issuance process
  must adhere to the separation-of-duty requirement to ensure
  that no single individual has the capability to issue a badge
  without the cooperation of another authorized person.

NRC’s accredited PIV-I process describes an approach that meets
FIPS 201-1 requirements, including those listed in the previous
paragraph. The process establishes specific PIV-I roles. For
example, PIV registrars in the Security Branch at headquarters are
responsible for ensuring that the necessary background
investigation is complete and reviewing the two original I-9
documents prior to badge issuance. In the regional offices and at



                                10
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



resident inspector sites, this role is assisted by I-9 document
certification authorities, who review the two original I-9 documents
and certify to the headquarters registrars that the documents are
appropriate and authentic. PIV issuers in the regional offices,
resident inspector sites, and headquarters issue badges to the
employee or contractor after all prerequisites are met.


 Table 5. Examples of I-9 Documents

        U.S. Passport, expired or unexpired
        Unexpired foreign passport
        Certificate of U.S. Citizenship
        Certificate of Naturalization
        Driver’s license
        Federal, State, or local government identification
         card
        School ID card
        Voter’s registration card
        U.S. Social Security card
        U.S. military card or draft record
        U.S. citizen identification card


NRC’s Process Was Not Always Followed

NRC’s PIV-I process was not consistently followed in that:

¾ The required background investigation was not always
  completed prior to badge issuance.

¾ Two forms of I-9 documents were not always reviewed prior to
  badge issuance.

¾ The form indicating that the applicant was notified of privacy
  implications was not always on file.

¾ At headquarters, the separation-of-duty requirement was not
  met. The issuer, who takes the photographs for headquarters
  employees and contractors and issues badges to these
  individuals, has the ability to issue a badge without cooperation
  from any other participant in the process. In contrast,
  separation of duties occurs in the NRC regional offices because
  the badge photographs are taken in the regional offices and the
  badges are produced at headquarters.




                                11
                            Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



                                    Background Investigation

                           Auditors conducted a file review to assess how well the PIV-I
                           process was followed for 72 employees and 4 contractors hired
                           during the first 4 months that the process was implemented and
                           identified two instances where the required background check was
                           not complete prior to badge issuance. In one case, the FBI
                           National Criminal History Fingerprint Check had not been returned
                           and in the other case, the fingerprint check was returned, but not all
                           components of the National Agency Check were complete. Both
                           instances occurred during the period of time when both FIPS 201
                           and NRC’s accredited PIV-I plan required the return of the National
                           Agency Check.6


                              Figure 1. File Review Results
                                     (based on 76 files reviewed)


                     Tw o I-9 Copies on
                                                                                            83%
                             File
    Area of Focus




                        Privacy Form
                                                                                            84%
                      Signature on File



                    PIV Sheet Complete            14%


                                      0%          20%         40%         60%         80%         100%

                                                      Percentage Complete


                                    I-9 Documentation

                           Two indicators suggested inconsistency with regard to the review of
                           two I-9 documents for each applicant. First, auditors found three
                           examples where contractors were required to present only one I-9
                           document for review prior to badge issuance. Second, auditors
                           identified 10 employee files that did not contain copies of two I-9
                           documents. Of the 10 incomplete employee files, 8 contained no

6
  Prior to March 2006, under the original FIPS 201, the required investigation was the National
Agency Check. Now, however, the revised FIPS 201-1 requires that only one component of the
National Agency Check – the FBI National Criminal History Fingerprint Check – be completed
before badge issuance. NRC issued revision 1 of its accredited PIV-I plan on March 24, 2006,
after OIG identified cases where badges had been issued prior to the return of the fingerprint
check. The revised document states that badges may be issued following return of the fingerprint
check.


                                                            12
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



I-9 document copies at all. The three contractor examples provide
actual cases where the process was not followed, whereas the
absence of documents in the other files suggests other occasions
where the process may not have been followed. While the absence
of documents in the files does not prove definitively that the
documents were not reviewed, it likewise does not prove that the
documents were reviewed. To ensure consistency, copies of two
I-9 documents should be included in each file. See Figure 1 on
page 12 for information on the file review results.

        Privacy Form

To verify that applicants are informed about the privacy issues
relevant to the PIV-I process, applicants are asked to review a
Privacy Act statement concerning the badge issuance process and
to sign a form acknowledging their review of the statement. The
Security Branch maintains some of these forms in individual
personnel security folders and others in a binder used specifically
to store these forms.

During the file review, auditors could not locate signed forms for 12
individuals in either location. Although the absence of these
documents does not prove that applicants were not informed about
the Privacy Act concerns, it does not provide assurance that the
appropriate step occurred.

        Separation of Duties

NRC’s PIV-I process specifies that photographs for employees and
contractors are to be taken by PIV registrars in headquarters and
by the I-9 certification authorities in the regional offices and at
resident inspector sites. However, this requirement is not fulfilled in
headquarters, where the issuers, and not the registrars, take the
photographs. Because it is the headquarters issuers who also
produce the badges and issue them to headquarters employees,
these individuals have the capability of creating and issuing badges
without the input from any other individual with a role in the
process.

Separation of duties does occur in the regional offices because
while the badge photographs are taken in those locations, the
badge production occurs at headquarters.




                                13
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



Process Adjustments Are Needed

These problems occurred because:

¾ There is no quality assurance measure to assure that required
  steps are met prior to badge issuance.

¾ Some with roles in the process do not understand their
  responsibilities.

¾ The badge photograph process is not carried out in accordance
  with the accredited plan.

   Quality Assurance Measure Is Absent

NRC has issued badges to employees who did not complete the
prerequisites to badge issuance because there is no quality
assurance measure in the process to ensure all necessary steps
are completed prior to issuance. No individual is assigned the task
of reviewing all prerequisite steps prior to sending the signal to the
badge creators that a badge is now warranted.

Currently, the notification to the headquarters issuers to produce
and issue a badge is signaled by the transmittal of NRC Form 236,
“Personnel Security Clearance Request and Notification,” for
employees and NRC Form 89, “Badge Request,” for contractors.
Both forms are used to provide information to the Security Branch
as to what type of clearance or access is needed. Although each
form is completed by a Security Branch official and forwarded to the
issuers from the Security Branch, neither form provides information
concerning the status of the PIV-I process (e.g., background
investigation complete, two I-9 documents provided) to indicate that
all necessary prerequisites are complete.

The Security Branch developed and uses a Personal Identity
Verification Sheet to track the PIV-I process. This form, which is
maintained in the personnel security files, is often incomplete, and
therefore not a useful indicator of whether prerequisite steps were
accomplished. Of the 76 verification sheets reviewed during the
audit, only 11 were completely filled out. If the Security Branch
were to require completion of the form, this would be a useful tool
to review as a quality control measure prior to badge issuance.




                                14
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



        Lack of Understanding of Responsibilities

Another reason staff do not consistently follow the PIV-I process is
that some individuals with roles in the process do not fully
understand their responsibilities. In headquarters, five individuals
with the registrar role expressed or demonstrated
misunderstandings about such aspects of the process as:

¾ How contractors are handled.

¾ The type of background investigation needed prior to badge
  issuance.

¾ Whether unescorted access is permitted prior to provision of two
  I-9 documents.

¾ Whether issuers need to review copies of two I-9 documents
  prior to badge issuance.

Regional staff with HSPD-12 roles were generally less familiar with
their responsibilities than headquarters staff due to the small
number of regional staff and contractors hired for those locations
since October 27, 2005 (the date NRC implemented its PIV-I
process). Three of seven regional employees contacted by the
Office of the Inspector General (OIG) had not received formal
training on their role and two had not received any written
guidance. Moreover, one individual incorrectly thought that the
HSPD-12 process for regional contractors would be handled
entirely by headquarters.

        Process for Badge Photographs Does Not Follow Plan

Separation of duties is not achieved in headquarters because staff
are not following the process described in the accredited PIV-I plan
which assigns badge photographs to the registrar. Allowing issuers
to take the photographs and produce and issue the badges gives
them the ability to single-handedly produce badges without input
from anyone else in the process. A Security Branch official said
they have prepared an area within their office space to allow
headquarters registrars to take the photos, but have yet to
implement this process.

During the audit exit conference, an NRC official said the Security
Branch registrars had begun taking the badge photographs and
that this task was no longer being performed by the headquarters
issuers.



                                15
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




No Assurance That Process Is Followed

NRC lacks assurance that its PIV-I process is consistently followed
and does not achieve the HSPD-12 separation-of-duty requirement.
Implementing measures to assure the process is followed and
imposing the separation-of-duty requirement will assist the Security
Branch Chief in his ongoing HSPD-12 responsibility to ensure that
badges are produced and issued in accordance with requirements.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Assign an individual or individuals to ensure that all PIV-I
   requirements are met prior to initiating a request to the issuer to
   produce and issue a badge.

2. Require completion of the Personal Identity Verification Sheet to
   track the PIV-I process and use this form to initiate the badge
   request.

3. Provide NRC-specific HSPD-12 training to all individuals with
   roles in the process to ensure they understand their
   responsibilities and the process overall. This training should
   include the provision of written guidance, such as checklists of
   responsibilities, to all individuals with roles in the process.

4. Implement rules for separation-of-duty with regard to badge
   photographs.




                                16
         Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



B.   HSPD-12 Working Group Has Several Shortcomings

         NRC’s HSPD-12 working group lacks a charter, lacks certain
         expertise that will be useful to guide the implementation of PIV-II,
         and has limited executive level representation. NRC’s HSPD-12
         working group is not sufficiently formalized or representative
         because Security Branch officials did not recognize the need for
         such measures. The development of an appropriate and cost-
         effective PIV-II solution will be facilitated by the efforts of a more
         formalized working group.

         Working Groups

         Important agency projects benefit from formalized working groups.
         Membership should include all NRC offices whose business
         processes will be affected by project implementation. Working
         groups can be critical to project development and implementation if
         their mission and member roles and responsibilities are clear to all
         parties. The importance of formalizing working groups is noted in
         two NRC Management Directives and Handbooks (MD) and by
         existing practice.

                 MDs 5.3 and 6.3

         MD 5.3, “NRC/Agreement State Working Groups,” describes the
         steps and process the staff should follow in establishing and
         implementing NRC/Agreement State working groups. MD 6.3, “The
         Rulemaking Process,” specifies guidance for working groups
         tasked with supporting the rulemaking process.

         Although these MDs focus on specific working groups, the
         guidance is applicable to other projects. For example, MD 5.3
         describes the information that should be included in a working
         group’s charter, such as purpose, membership, schedule, and
         expected product/outcome of the working group. MD 5.3 states
         that the lead organization usually assumes lead responsibility for
         the working group, including establishing the purpose of the
         working group, requesting participation, drafting a charter,
         identifying members, and tracking progress. This guidance also
         explains that working group members should be active in
         recommending improvements and should understand how their
         contributions are used in the process and products.

         MD 6.3 specifies guidance for working groups tasked with meeting
         agency rulemaking objectives. Membership should include (1) a
         task leader from the lead office, (2) members from within the lead


                                         17
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



office that have program responsibilities related to the rulemaking,
(3) a member from the Office of the General Counsel to provide
legal advice and support, and (4) staff from other offices, as
appropriate.

        Working Group Examples

The role of working groups has been defined in various internal and
external efforts. Current NRC working groups include the
Management Directives Working Group, the High-Level Waste -
Information Support Program Executive Steering Committee, and
Rulemaking Working Groups. Working groups such as these have
established charters and consist of executive, management, and
staff representatives from a range of NRC offices. In addition, two
agencies interviewed during the course of this audit have
established working groups to promote HSPD-12 implementation.
Appendix D contains a sample of an HDPD-12 working group
charter provided by another Federal agency.

HSPD-12 Not Sufficiently Formalized

The project to implement HSPD-12 is not benefiting from the input
of a structured, formalized working group. Specifically, NRC’s
HSPD-12 working group:

¾ Has not established a charter.

¾ Lacks some expertise that will be needed to guide the
  implementation of PIV-II.

¾ Has limited executive level management representation.

        Charter Not Established

NRC’s HSPD-12 working group has not established a charter
defining its purpose, mission, roles and responsibilities, and
products. In addition, there are no formal records documenting
meeting agenda or minutes or status of unresolved issues.

        Lacks Certain Expertise

The current HSPD-12 working group lacks certain expertise that will
be useful to guide the implementation of PIV-II and does not
represent all NRC offices whose business processes will be
affected when PIV-II is being implemented.




                                18
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



The current HSPD-12 working group does not include
representation from offices outside the Office of Information
Services and the Office of Administration, and also does not include
some expertise from within these offices needed to facilitate a PIV-
II solution. For example, there is no representative from the
Division of Contracts to help with acquisition strategy, no
representative from the Office of the General Counsel to provide
legal advice concerning a PIV-II solution, and no representative
from the Office of the Chief Financial Officer to assist with financial
issues. In addition, the Office of Information Services staff person
who was instrumental in costing out and encouraging the PIV-II
planning approach is not a working group member.

        Limited Executive Level Management Involvement

NRC’s HSPD-12 working group has limited executive level
management representation. The HSPD-12 working group is
composed of 12 NRC employees and 1 contractor. Although the
majority of the participants are grade 13 or above, only one
member is a senior level executive and this individual, from the
Office of Information Services, rarely attends the working group
meetings.

Need For Structure Not Recognized

The absence of an HSPD-12 working group charter, limited
executive level management, or diverse intra-agency
representation within the HSPD-12 working group occurred
because Security Branch staff did not recognize the need for input
from such a group during the initial phase of HSPD-12
implementation. The Security Branch developed the PIV-I plan
internally and involved other offices only for the PIV-I accreditation
process. However, for PIV-II development and implementation, the
input from a formalized working group will be increasingly important
to complete these more technical tasks that will affect the business
processes of all NRC offices.

Facilitation of Cost-Effective Solution

The development of an appropriate and cost-effective PIV-II
solution will be facilitated by the efforts of a more formalized
working group.




                                19
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



Recommendations

OIG recommends that the Executive Director for Operations:

5. Expand the HSPD-12 working group by including representation
   from all offices needed to facilitate a cost-effective PIV-II
   solution.

6. Formalize the HSPD-12 working group by developing a charter
   that defines the membership and expectations.




                                20
        Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



IV. AGENCY COMMENTS

        During an exit conference held July 10, 2006, the agency generally
        agreed with the audit findings and recommendations and provided
        comments concerning the draft audit report. We modified the
        report as we determined appropriate in response to these
        comments. NRC reviewed these modifications and opted not to
        submit formal written comments to this final version of the report.




                                        21
        Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1. Assign an individual or individuals to ensure that all PIV-I
           requirements are met prior to initiating a request to the issuer to
           produce and issue a badge.

        2. Require completion of the Personal Identity Verification Sheet to
           track the PIV-I process and use this form to initiate the badge
           request.

        3. Provide NRC-specific HSPD-12 training to all individuals with
           roles in the process to ensure they understand their
           responsibilities and the process overall. This training should
           include the provision of written guidance, such as checklists of
           responsibilities, to all individuals with roles in the process.

        4. Implement rules for separation-of-duty with regard to badge
           photographs.

        5. Expand the HSPD-12 working group by including representation
           from all offices needed to facilitate a cost-effective PIV-II
           solution.

        6. Formalize the HSPD-12 working group by developing a charter
           that defines the membership and expectations.




                                        22
              Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



                                                                                  APPENDIX A
                         PIV-II ARCHITECTURE DIAGRAM

The Architecture Diagram (page 24) provides a high-level overview of the
components required to implement a FIPS 201 compliant system. The system
components are as follows:

   •   The Identity Management System (IDMS) is the central component that
       interacts either directly or indirectly with all other components of the PIV-II
       Architecture.

   •   Registration stations are used to identity proof applicants and capture their
       biometrics for use in conducting background investigations and printing
       information on the PIV card.

   •   The public key infrastructure (PKI) component of the system will issue
       digital certificates, manage the keys associated with those certificates, and
       maintain up to date information on certificate status.

   •   The card management system (CMS) is used to manage card lifecycle
       activities. The CMS interfaces with the IDMS as well as the certificate
       authority, card printing station, and the PIV card itself. The CMS will be
       used to manage the issuance and printing of a PIV card and the public key
       infrastructure certificate associated with that card.

   •   The card printing system (CPS) will manage the printing and distribution of
       the actual PIV cards. Card printing and distribution will interface directly
       with the CMS and the applicant and indirectly with PKI, and IDMS.

   •   Employee Data serves as the authoritative data source for providing
       information to the IDMS. All applicant information must first be present in
       the Employee data system before it is available to the IDMS; no applicant
       information will be entered directly into the IDMS.

   •   Office of Personnel Management (OPM) will conduct all applicant
       background investigations and forward results to the appropriate agency
       for adjudication. The FBI will be responsible for conducting fingerprint
       checks against its fingerprint database as a component of all background
       investigations.

   •   Logical Access Control Systems (LACS) will interface with PIV cards to
       provide cardholders access to federally controlled networks and
       information systems.

   •   Physical Access Control Systems (PACS) will interface with PIV cards to
       provide cardholders access to federally controlled facilities.


                                              23
                                   Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




HSPD-12 Core Components
   PKI Certificate
     Authority
          PKI                                                            Personnel Management
                                              Sponsor                          Systems
                                               Role



                Key Mgt.                                               Employees                 Affiliates
    CRL
                                                                                   Contractors
                                                                                                                     Adjudicator
                                                                                                                        Role
         Certificate
         authority                                                                                                          Interface with                             Finger Print
                                                                                                                              Background                                  Check                         FBI
                                                    IDMS                                                                     Investigation                      OPM
                                                                            Interface with Personnel                           Systems
                                                                             Management Systems
                   In
                       te
                          ra
                             c
                           tio
                               n




             CMS                                                                                                                 Registration                                                  Applicant


                                                                                                                                                                                      Biometrics
                                                                                                                                                                  Camera

                                                                                                                                          Card
                                                                                                                                         Reader
                                                                                       IDM DB
                                                                                                              Interaction                                                                           Source
                                      CMS         Interaction
                                                                                                                                                                      Document                     Documents
                                                                                                                                                                       Scanner
                                                                                                                                          Registration
                                                                                                                                            WKS               Finger Print
                                                                                                                                                                Scanner
                           OCSP                                                App
                                                                                                                                             Registration
                         Responder                                                         Reporting                                                                                       Registrar
                                                                              Server
                                                                                                                                                                                             Role
                             n
                           io
                           t
                      r ac
                   te




 CPS
                  In




                                                                 Interfaces with Logical
                                                                                                                    Interface with Physical
                                                                Access Control Systems
                                                                                                                   Access Control Systems



                                                                                 LACS                                   PACS
                                                                                                                                     C
       Card Printing


                                                                                      SSO                                   Reader
                                                   WKS            Card Reader      Directories                                                      PACS DB
     Card Distribution




                                                                                       24
       Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)


                                                                                 Appendix B
SCOPE AND METHODOLOGY

       Auditors evaluated whether NRC is positioned to meet HSPD-12
       requirements.

       The OIG audit team reviewed relevant criteria, including HSPD-12,
       OMB guidance concerning HSPD-12, and NIST guidance,
       including FIPS 201 and FIPS 201-1. The audit team also reviewed
       NRC’s documentation of its accredited PIV-I process as well as
       correspondence between NRC and OMB concerning HSPD-12
       funding.

       Auditors interviewed staff from the Office of Information Services
       and the Office of Administration concerning HSPD-12
       implementation. Auditors interviewed regional and headquarters
       staff with roles in NRC’s HSPD-12 process to assess their
       understanding of the process. Auditors also interviewed
       representatives from the Office of Personnel Management and the
       National Archives and Records Administration to learn about their
       implementation of HSPD-12 and communicated with staff from
       OMB and NIST concerning HSPD-12 requirements.

       Auditors compared NRC’s accredited HSPD-12 process with FIPS
       201-1 and with OMB requirements, and observed aspects of the
       process as implemented in headquarters to assess whether the
       NRC’s process and procedures met HSPD-12 objectives. Auditors
       also reviewed 76 personnel security files for both NRC employees
       and contractors with Entry on Duty dates of October 27, 2005,
       through February 28, 2006.

       This work was conducted from December 2005 through March
       2006, in accordance with generally accepted Government auditing
       standards and included a review of management controls related to
       audit objectives. The work was conducted by Beth Serepca, Team
       Leader; Judy Gordon, Audit Manager; Vicki Foster, Senior
       Management Analyst; and Erica Horn, Auditor.




                                       25
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




               [Page intentionally left blank.]




                                26
                   Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)


                                                                                             Appendix C


AUDIT OBSERVATION CONCERNING NRC’S PIV-II APPROACH

                   NRC, like other Federal agencies, is challenged to meet OMB
                   implementation deadlines because approved products are not yet
                   available, uncertainty persists over basic requirements, and
                   additional money was not provided to implement HSPD-12. Given
                   the lack of products or additional resources, and a Governmentwide
                   initiative to look for cost-effective ways to implement HSPD-12,
                   NRC has an opportunity to consider less expensive options than
                   the agency initially envisioned in its $10.2 million PIV-II budget
                   estimate. That budget estimate reflects a PIV-II plan that goes
                   beyond minimum PIV-II requirements and does not take advantage
                   of opportunities to share resources with other agencies.

                   While agency officials explained that they are continually
                   considering alternative approaches, and have shifted their plan with
                   regard to an OMB deadline, they had not documented such
                   alternatives until recently. During the audit exit conference, NRC
                   managers informed OIG that the $10.2-million approach was no
                   longer the only documented approach under consideration. They
                   explained that in May 2006 (after fieldwork on this audit was
                   complete), the Office of Administration presented estimated costs
                   for alternative approaches, including the use of a shared service
                   provider, to NRC’s Program Review Committee for consideration in
                   the agency’s budget process.

                   OMB Deadlines

                   OMB established October 27, 2006, as the date that Federal
                   agencies are to begin issuing PIV-II badges and October 27, 2007,
                   as the point at which compliant badges are to have been issued to
                   all employees and contractors. At NRC’s request, OMB allowed
                   NRC a more generous timetable for compliance. Under the NRC
                   plan that OMB approved, NRC proposed to begin issuing badges
                   on September 28, 2007, and finish issuance by February 28, 2008.

                   NRC’s Schedule

                   Because no additional funding was provided to NRC for HSPD-12
                   implementation, and because approved HSPD-12 products were
                   not available earlier this year as anticipated,7 NRC does not intend
                   to meet the OMB-approved dates. Instead, the agency intends to

7
    As of the drafting of this report, approved, HSPD-12 compliant products were still unavailable.


                                                   27
                 Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



                revert to a prior timeline that OMB disapproved. Under that plan,
                the agency proposed to begin issuing compliant badges in
                November 2008. However, a Security Branch official said that NRC
                would issue a single badge in October 2006 to fulfill OMB’s
                requirement to begin issuing PIV-II compliant cards at that time.

                NRC’s PIV-II Plans

                While agency officials explained that they are continually
                considering alternative approaches to a $10.2 million PIV-II plan
                that they developed, they have not, until recently, documented
                these alternatives.

                The $10.2 million plan, which is documented and which served as
                the basis for the timeline approved by OMB, reflects an approach
                that may be warranted to strengthen security at NRC. This plan
                exceeds minimum HSPD-12 requirements by including logical
                access readers on every employee’s workstation, lobby turnstiles,
                fingerprint authenticators, a new badge access system, a new
                personnel security system, and in-house badge manufacturing
                capabilities. (See the Background section of this report for
                information on minimum requirements.)

                Security Branch officials’ perspectives toward the documented
                approach have shifted over time. At the start of this audit, a
                Security Branch official explained that this solution was desirable
                because it would allow employees to have one badge access card
                instead of two (e.g., one for NRC access and one that is HSPD-12
                compliant) and would eliminate the need to “sneakernet”8 data from
                the personnel security database to the badge access database.
                The official also said that in-house badging capability was desirable
                because it would prevent inconveniencing NRC staff whom, under
                a shared resources approach (e.g., relying on another agency’s
                badge manufacturing capabilities), would have to commute to an
                offsite location to obtain initial and replacement badges.

                More recently, however, a Security Branch official described the
                $10.2 plan as an outside guess based on the “worst case” in that it
                allows for all possibilities and the uncertainties in terms of product
                availability and cost. This official explained that the Security
                Branch is considering alternative approaches, including the sharing
                of resources with other agencies. Although NRC officials are
                contemplating alternatives to the $10.2 million approach

8
 Sneakernet is a term used to describe the practice of sharing data by copying files to floppy
diskettes, and walking them to another part of the office to load them onto another computer. It is
a way of sharing data and files in the absence of a local area network.


                                                 28
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



documented to support the plan and schedule approved by OMB,
the agency has only recently begun to document these alternatives.

By continuing to document the alternative approaches to PIV-II that
are currently under consideration, and the timelines and costs for
implementing these approaches, NRC will be better positioned to
pursue a cost-effective course of action.




                                29
Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




               [Page intentionally left blank.]




                                30
               Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)


                                                                                         Appendix D


                                   SAMPLE CHARTER

            HOMELAND SECURITY PRESIDENTIAL DIRECTIVE-12
           PERSONAL IDENTITY VERIFICATION WORKING GROUP


The Personal Identity Verification (PIV) Working Group is a stakeholders working
group supported by voluntary participation from the key NRC organizations
impacted by PIV implementation.


1.    Mission.

The Personal Identity Verification (PIV) Working Group is designed to support
collaborative implementation of Homeland Security Presidential Directive-12
(HSPD-12), ensuring that the agencywide personal identity program meets the
control and security objectives of HSPD-12, to include identity proofing,
registration and issuance.


2.    Scope.

The PIV Working Group supports the agency’s PIV implementation efforts by:

      a.     Serving in an advisory capacity.

      b.     Facilitating integration among stakeholder departments to promote
             proper selection and use of the best available equipment and
             procedures to optimize safety, interoperability, and efficiency.

      c.     Identifying technical, physical security, and facilities requirements
             for PIV implementation.

      d.     Providing a catalyst for recommendations to the Interagency
             Advisory Board (IAB) on interoperability solutions between Federal
             agencies.

      e.     Establishing policy and procedures for the operation and
             maintenance of the agency’s PIV program.




                                               31
             Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)



                                 SAMPLE CHARTER

            HOMELAND SECURITY PRESIDENTIAL DIRECTIVE-12
           PERSONAL IDENTITY VERIFICATION WORKING GROUP


3.    Organizational Structure and Responsibilities.

      a.     Chairman – The PIV Working Group Chairman is                  and
             Co-Chairs are                  ; all of the Division            . The
             Chairman is selected by default as part of the position description
             of the PIV Physical Security Specialist. The Chairman’s term starts
             at EOD and ends when this individual transitions out of the position.

The Chairman administers, organizes, and facilitates the actions of the PIV
Working Group.

The Chairman provides recommendations to the Executive Stakeholders
Committee through the                           .

      b.     Working Group Membership

SubGroups/ Co-Chairs

SubGroups– The PIV Working Group has five SubGroups which consist of
subject matter experts:
             1.     Physical Security
             2.     Information Systems
             3.     Contracting and Facilities
             4.     Human Capital
             5.     Executive Stakeholders

SubGroups will send Primary and /or Backup representatives to act as Co-chairs.


The duties of SubGroup/Committee Co-Chairs are to:

      a.     Direct the efforts within their sub-groups to accomplish the scope of
             PIV working group activities, to support overall PIV implementation
             and maintenance.

      b.     Provide liaison with the PIV Working Group Chairman.

      c.     Provide meeting minutes, status of ongoing projects, and written
             reports of recommendations and requirements from the SubGroup.




                                             32
             Audit of NRC’s Implementation of Homeland Security Presidential Directive-12 (HSPD-12)




                                 SAMPLE CHARTER

            HOMELAND SECURITY PRESIDENTIAL DIRECTIVE-12
           PERSONAL IDENTITY VERIFICATION WORKING GROUP

      d.     Chairs to review membership participation and to ensure SubGroup
             membership represents the interest across the entire agency.

Interagency Advisory Board (IAB) – A coordination committee outside of the
agency, to which the agency sends representatives, that provides the interface
between the OMB and sponsoring Federal Government agencies. The IAB
consists of Federal officials from contributing agencies and departments. The
IAB shall:

      a.     Coordinate and leverage ongoing federal research, development,
             testing and evaluation (RDT&E) efforts to meet the HSPD-12
             requirements as identified by OMB.

      b.     Solicit and coordinate mission support which includes activities
             such as organizational staff support, contributory funding, project
             sponsors, meetings, technical support, the IAB business cycle, and
             resulting products.

      c.     Meet to coordinate Federal requirements.

      d.     Attend general membership meetings.

4.    Execution.

      The Working Group shall conduct its mission during weekly meetings.
      The co-chair will provide a meeting agenda no later than three business
      days prior to the weekly meeting. The co-chair will record the issues
      addressed during each weekly meeting.




                                             33
